No.

In The Supreme Court of the United States
JAMUL ACTION COMMITTEE, et al
Petitioners
v.
E. SEQUOYAH SIMERMEYER, et al.
Respondents
CERTIFICATE OF SERVICE
I, Kenneth R. Williams, counsel for Petitioners, and a member of the bar of
this Court, certify that on April 21, 2021, per this Court’s April 15, 2020 Order
(589 U.S.), I served a copy of the Petition for Certiorari in the above entitled case
by mailing, with first class U.S. postage prepaid, an 8½ x 11 inch paper copy of the
Petition, to the Solicitor and Respondents’ Counsel at the following addresses:
Solicitor General of the United States, Room 5616, Department of Justice, 950
Pennsylvania Avenue, N.W. Washington, DC 20530-0001, (Per Rule 29.4.)
Varu Chilakamarri, Attorney, Appellate Section, U.S. Department of Justice,
P.O. Box 7415, Washington, DC 20044 (Counsel for Federal Respondents).
Frank Lawrence, 578 Sutton Way N. 246, Grass Valley, CA 95945 (Counsel for
non-Federal Respondents).
I further certify that all the parties required to be served have been served.
/s/ Kenneth R. Williams
Kenneth R. Williams
980 9th Street, 16th Floor
Sacramento, CA 95814
(916) 449-9980
KenWilliams5165@gmail.com

